  Peace Corps
  Office of Inspector General




    Tian Shan Mountains, the Kyrgyz Republic




          Flag of the Kyrgyz Republic



Final Program Evaluation Report:
  Peace Corps/Kyrgyz Republic
               IG-12-02-E

                                          December 2011
                             EXECUTIVE SUMMARY
Over 900 Peace Corps Volunteers have served the people of the Kyrgyz Republic since
the program was first launched in 1993. There are currently three project sectors in the
Kyrgyz Republic: teaching English as a foreign language (TEFL); health education (HE);
and sustainable organizational and community development (SOCD). At the onset of this
evaluation, 78 Volunteers were serving in the Kyrgyz Republic. Plans to increase the
size of the program were suspended following a period of civil unrest in 2010.

In April 2010 the Kyrgyz Republic experienced a violent revolution that ousted the
president, and in June 2010 ethnic violence caused hundreds of deaths and displaced
hundreds of thousands. From April to October 2010 Peace Corps/Kyrgyz Republic
(hereafter referred to as PC/Kyrgyz Republic or “the post”) repeatedly and successfully
activated its emergency action plan (EAP) in response to emergency situations. The
Office of Inspector General (OIG) found a consensus among Peace Corps staff, U.S.
Embassy staff, and Volunteers that the post’s staff responded effectively. Emergency
preparedness remains a top priority at the post.

Our evaluation determined that a few areas of emergency preparedness require attention.
Programming staff were not trained on their EAP roles and responsibilities and did not
participate in EAP revision activities. Volunteers were not prepared for an emergency that
interrupted telephone communications and some Volunteers did not have a copy of the EAP at
their sites. The post’s practice of introducing Volunteers to local police and civic leaders,
which facilitates and supports the agency’s Volunteer integration strategy, has become
inconsistent.

Overall, Volunteers at the post are very satisfied with staff support and satisfied with
their sites and counterpart relationships. Volunteers are having success meeting their
project objectives, particularly in the TEFL sector. However, Volunteers in the SOCD
and HE sectors have struggled to identify viable work partners. Volunteers in both
sectors were satisfied with project support provided by their program managers (PMs).
Grant management was identified by Volunteers as an area that needs improvement.

During FY2010, the post failed to conduct effective budgeting and resource planning,
which impacted pre-service training (PST) programs, safety and security operations, staff
step increases, and the in-country travel budget. An experienced director of management
and operations (DMO), who arrived in February 2011, has begun to strengthen budgeting
and planning activities. Additionally, the post has not carried out a planned review of
staff statements of work and pay grades which has impacted staff morale.

Our report contains 12 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.
Management concurred with all 12 of our recommendations. Twelve recommendations
remain open pending receipt and review of documents to be submitted.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                               i
                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................... i

HOST COUNTRY BACKGROUND .............................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ............................................................ 1

EVALUATION RESULTS .............................................................................................. 3
          VOLUNTEER SUPPORT ....................................................................................................................... 3

          MANAGEMENT CONTROLS ................................................................................................................ 8

          PROGRAMMING ................................................................................................................................12

          TRAINING .........................................................................................................................................14

          PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) ......................................................15


OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................... 17

INTERVIEWS CONDUCTED ...................................................................................... 18

LIST OF RECOMMENDATIONS ............................................................................... 21

APPENDIX A: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ..... 23

APPENDIX B: OIG COMMENTS ............................................................................... 31

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG
CONTACT....................................................................................................................... 41
                      HOST COUNTRY BACKGROUND
The Kyrgyz Republic is a small, mountainous country in Central Asia bordered by
Kazakhstan, Uzbekistan, Tajikistan, and China. The population of five and a half million
is a mix of ethnicities with a Kyrgyz majority, Uzbek and Russian minorities, and small
numbers of Dungans, Uighurs, and other ethnicities. The main religions are Islam and
Russian Orthodox and the official languages are Kyrgyz and Russian.

The Kyrgyz people are traditionally nomadic herders whose strategic location along the
Silk Road, an ancient network of trade routes through Asia, subjected them to the
influences of foreign rulers and cultures. The territory of the Kyrgyz Republic was
formally incorporated into the Russian Empire in 1876. In 1918 Soviet power was
established in the region, and in 1936 the Kyrgyz Soviet Socialist Republic was
established as a full Union Republic of the Union of Soviet Socialist Republics (USSR).
The Kyrgyz Republic declared its independence from the USSR in 1991.

In April 2010 the Kyrgyz president was ousted by a popular rebellion. In May 2010
demonstrations led to the temporary takeover of government offices in southern regions.
Parliamentary elections held in October 2010 were relatively peaceful. The Kyrgyz
Republic currently has a caretaker president who leads an interim government until new
presidential elections scheduled for October 2011 are held. In June 2010, violence broke
out for several days between ethnic Kyrgyz and Uzbek populations in the south. Similar
ethnic-based violence occurred in 1990 while the Kyrgyz Republic was still part of the
Soviet Union. The Kyrgyzstan Inquiry Commission, an independent international
commission, reported in May 2011 that the violence caused 470 deaths, almost 2000
injuries, and drove over 400,000 people from their homes.

An ongoing challenge facing the Kyrgyz Republic is the deterioration of the country’s
infrastructure, which has weakened the education and health care systems. Other
challenges include widespread poverty, rising food and gas prices, and endemic
corruption. The Kyrgyz Republic is ranked 109 out of 169 countries on the United
Nations Human Development Index. According to the World Bank, the per capita gross
national income was $870 in 2009. Transparency International has ranked the Kyrgyz
Republic 164 out of 178 countries on the 2010 Corruption Perceptions Index.


              PEACE CORPS PROGRAM BACKGROUND
Since the first Peace Corps Volunteers arrived in the Kyrgyz Republic in 1993, over 900
Volunteers have served in the country. Plans to increase the size of the program were
suspended following civil unrest in 2010.

During the April 2010 popular rebellion the post consolidated Volunteers and trainees in four
regions of the country, and Volunteers in two other regions were placed on stand-fast, a
warning stage during which Volunteers remain at their sites and prepare for a consolidation

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                              1
while awaiting further instructions. In May 2010 government buildings in the southern city of
Jalalabad were seized during rioting and Volunteers in that region were evacuated to the north
and all Volunteers were placed on stand-fast. In June 2010 Volunteers were evacuated from
the southern city of Osh due to additional rioting and all programming in southern regions was
suspended. Volunteers were relocated to other regions and some received interrupted service
or early close of service (COS). The number of Volunteers in-country decreased by roughly 45
percent, from 165 in April to 90 at the end of July 2010. Volunteers were consolidated again
in October 2010 amid fears that parliamentary elections would cause further civil unrest.
Fortunately, the elections were held peacefully. Nonetheless, emergency preparedness remains
a top priority at the post.

At the onset of this evaluation there were 78 Volunteers in-country. The post receives one
training input per year and a group of 41 trainees were sworn-in on June 1, 2011. For Fiscal
Year 2011 the post’s operating budget was $1,372,7001 and it had 44 staff members supporting
post operations. Volunteers serve in the following three sectors:

       Teaching English as a Foreign Language
    Most TEFL Volunteers work at the secondary education level in rural areas where the
    need for English-language teachers is the greatest. Some TEFL Volunteers work in
    universities and teacher-training colleges in larger towns and cities. TEFL Volunteers
    focus on classroom instruction, teacher-training, developing teaching materials,
    enhancing the English-language curriculum, and developing sustainable educational
    and community-based projects.

       Health Education
    HE Volunteers partner with a wide variety of community-based organizations and
    conduct a range of projects based on their background, experience and interests.
    Some Volunteers work at the grassroots level with rural village health committees.
    Volunteers may work with schools, youth service centers or community groups
    providing education and building awareness on health issues.

       Sustainable Organizational and Community Development
    SOCD Volunteers work predominantly in rural areas with grassroots non-
    governmental organizations (NGOs) and community based organizations (CBOs).
    Volunteers facilitate capacity building, transfer skills, and help to identify and
    implement community projects with local residents.




1
 The post’s Fiscal Year 2011 operating budget was adjusted to $1,270,100 during the formal mid-year
budget review process.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                          2
                                    EVALUATION RESULTS
 VOLUNTEER SUPPORT

 Our country program evaluation attempts to answer the question, “Has the post provided
 adequate support and oversight to Volunteers?” To determine this, we assessed
 numerous factors, including staff-Volunteer communications; project and status report
 feedback; medical support; safety and security support including staff visits to Volunteer
 sites, the emergency action plan (EAP), and the handling of crime incidents; and the
 adequacy of the Volunteer living allowance.

 In reviewing overall staff support, Volunteer allowances, site visits, medical support, site
 locator forms, communications, Volunteer Advisory Committee (VAC) activities, and
 crime reporting, OIG found no significant areas of concern that would necessitate action
 by the post. The Volunteers we interviewed gave a 100 percent favorable rating to
 overall staff support, with an average rating of 4.1 (see Table 1 below).

                    Table 1: Volunteer Ratings of Support Provided by Staff
            Area of Support                      Percent Favorable (3,4,5) Average Response Rating
 Staff overall                                            100%                       4.1
 Country Director                                         100%                       4.6
 Director of Programming & Training                        94%                       4.2
 Programming Staff                                        100%                       4.1
 Training Staff                                           100%                       4.4
 Safety and Security Coordinator                          100%                       4.3
 Medical Unit                                              94%                       4.3
Source: the rating for programming staff included two TEFL program managers, one HE program manager, and one
SOCD program manager; the rating for training staff included the training manager and language and cross-cultural
coordinator; and the rating for the medical unit included two Peace Corps medical officers.

 None of the Volunteers we interviewed indicated that their Volunteer allowances were
 insufficient to meet their needs. One hundred percent of the Volunteers we interviewed
 (19 of 19) gave favorable ratings for programming site visits, with an average rating of
 4.1. Staff and Volunteers expressed high levels of confidence with medical support from
 the health unit. The health unit is staffed by two PCMOs who both have strong
 professional credentials and a combined 18 years of experience as Peace Corps medical
 staff, including a combined total of 14 years working with the health unit in the Kyrgyz
 Republic. Volunteers also said they receive effective administrative and logistical
 support from the medical assistant.

 Overall, Volunteers were satisfied with the level of communication from the post’s staff
 and the availability of staff to provide support. Only one of fifteen Volunteers was
 dissatisfied with the effectiveness of the VAC, which received a 3.7 rating average. Six
 of 19 Volunteers we interviewed had been victims of crime incidents. They all reported
 the crime incidents to Peace Corps staff and were satisfied with the response. The post’s
 staff believe that the agency’s new Guidelines for Responding to Rape and Major Sexual

 Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                                       3
Assault offer clear instructions for response to an incident, and staff are confident in the
post’s ability to respond to a rape or sexual assault.

From April to October 2010, the post activated its EAP in response to multiple
emergency situations. The OIG found a consensus among Peace Corps staff, U.S.
Embassy staff, and Volunteers that the post’s staff responded effectively. The deputy
chief of mission (DCM), who was the acting ambassador at the time of the evaluation,
expressed a high level of confidence with the post’s ability to respond effectively to
future emergencies. Our evaluation determined that a few areas of emergency
preparedness require attention.

Key staff were not trained concerning their emergency action plan roles and
responsibilities and were not included in emergency action plan revisions.

The PC/Kyrgyz Republic’s EAP states, “Staff have EAP training on a periodic basis,
including regular training sessions.” However, staff have not received any EAP training.
During the revolution in April 2010 programming staff did not play any role in the post’s
emergency response and were sent home as non-essential staff. However, senior staff
later determined that programming staff should participate when the post responds to an
emergency and during the consolidation in October 2010 programming staff were asked
to contact and coordinate Volunteers. Programming staff were eager to participate in
emergency response activities, however with no training they did not feel well-prepared
to respond to an emergency. Instead, they were unclear on their EAP roles and
responsibilities and those of other staff, as well as the scope of their involvement in an
emergency. Fortunately, they were successful in performing their assigned tasks during
the consolidation in October.

The office of safety and security’s Safety and Security Instruction 602, Emergency Action
Plan Testing Guidelines, states that all staff with EAP roles should be included in the
revision process:

        An after-action debrief should include all actors in the emergency activation and include
        their perspectives for improving the EAP. The EAP should be revised as soon as possible
        after the EAP test to ensure that important lessons are not lost.

Following the consolidation in October 2010 the SSC revised the EAP but without
briefing or involving other staff.

                We recommend:

                     1. That the safety and security coordinator conduct
                        emergency action plan revision and briefing activities
                        that include all staff with emergency action plan roles
                        and responsibilities.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                        4
                     2. That the safety and security coordinator conduct
                        training for all staff with emergency action plan roles
                        and responsibilities.


Volunteers relied on cell phones during emergencies.

The PC/Kyrgyz Republic’s EAP states, “The EAP is the primary crisis management
document and response tool for PC Staff, Volunteers and Trainees.” During training,
Volunteers receive a version of the EAP which they were expected to keep securely in
their homes. While three Volunteers did not have a copy of the EAP at their sites, most
Volunteers indicated familiarity with emergency action procedures due to recent
consolidation and stand-fast activities. However, Volunteers explained that the EAP had
not been a primary resource for them during these events because they received guidance
and instruction via text messages and cell phone calls. Volunteer comments included:

        “We just follow the text messages when they arrive.”

        “I would not use the [EAP] in an emergency. Our phones get lit up with texts.”

        “I would not refer to the EAP. I would use cell phones. There is a land line across the
        street…EAP would not be used in an emergency.”

The post’s EAP notes that in the event of a large-scale emergency telephone
communications in the Kyrgyz Republic are likely to be interrupted. Though Volunteers
were able to receive communications from post staff by text message and cell phone
during the events of 2010, this may not be a viable means of communication in future
emergencies. Therefore, familiarity with the EAP and keeping a copy at their sites are
critical components to post’s ability to successfully manage emergency situations.

                 We recommend:

                     3. That the safety and security coordinator ensure that all
                        Volunteers keep a current copy of the post’s emergency
                        action plan at their home.

                     4. That the safety and security coordinator ensure that
                        emergency action plan training and testing includes
                        alternate communication/non-cell phone scenarios.


The post’s practice of introducing Volunteers to local police and civic leaders has
become inconsistent.

Community integration is a cornerstone of the Peace Corps approach to Volunteer safety
and security. The PC/Kyrgyz SSC has developed a successful integration practice in
which staff facilitate Volunteer introductions to their local police and civic leaders. Staff


Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                      5
in the EMA region identified this as a best practice. Volunteers appreciated the
introductions and reported that they increase project support as well as safety and
security. Volunteer comments included:

           “[The police] know me now. They know I'm a Volunteer when before who knows what
           they were thinking. Meeting the mayor and his staff was useful also for work.”

           “When people see us on the street they know we are not tourists. I was assigned my own
           police officer and he gave me his phone number and name… establishing a relationship is
           a preventive measure.”

The K182 Volunteers were informed during PST that staff-facilitated introductions would
occur during September 2010. However, thirty-seven percent of the Volunteers we
interviewed (7 of 19) in March 2011 were still waiting for staff to organize these
introductions. Some introductions occurred but much later than Volunteers expected.
Volunteers were frustrated with the delays. Their comments included:

           “I don't even know where the police are found. Other Volunteers have found it useful to
           know the police - that would have been helpful for me.”

           “It took nine months…It should not have taken so long, it was way too late.”

           “A lot of trainees were excited about [staff] facilitating those introductions. It was never
           done. I don’t know why. I think it would have been good to get these introductions.”

The SSC began facilitating these introductions in September 2010, but due to a lack of
budget she was unable to travel to some sites to complete the introductions for all
Volunteers. After September 2010 responsibility for facilitating these introductions
began to shift to programming staff, and in March 2011 all of the introductory meetings
became the responsibility of programming staff. Programming staff had not organized
introductions for a portion of Volunteers who are still waiting for these important
introductions.

The director of programming and training (DPT) reported that in the future the
programming unit would incorporate these introductory meetings into regional trainings
to ensure that they occur within the first three months of service.

                    We recommend:

                        5. That the country director and director of programming
                           and training ensure that staff conduct Volunteer
                           introductions with local police and civic leaders within
                           acceptable timeframes.




2
    The post’s eighteenth group of Volunteers.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                              6
Volunteer travel over mountain passes in the winter poses a significant safety risk.

The Kyrgyz Republic is bordered on the north by Kazakhstan. Traveling into Kazakhstan
is the most reliable emergency evacuation route for many Volunteers. To ensure that
Volunteers can enter Kazakhstan, staff collect Volunteer passports each year to renew a
one-year Kazakhstan visa. This process occurs during the winter and Volunteers receive
their passports in the spring. For the Volunteers in the western region of Talas, the
timing of the renewal process eliminates the option to travel through Kazakhstan at a
critical time. To reach the Peace Corps office in Bishkek, or other points east of Talas,
without leaving the Kyrgyz republic, Volunteers in the Talas region must cross two
mountain passes, which can become treacherous in the winter. The mountain passes can
be bypassed using a road that crosses into Kazakhstan and requires a visa, which is not
possible after staff collect Volunteer passports to renew visas.

Senior staff at the post were aware of the safety risk and said they would review the
timing of the visa renewal process to allow Volunteers access to the Kazakhstan route
during the winter.

                We recommend:

                     6. That the country director ensure that Volunteers in the
                        Talas region of the Kyrgyz Republic have access to their
                        passports during the winter.


Earthquake drills prescribed in the post EAP are not being conducted.

The Kyrgyz Republic is located in an area of seismic activity. The post’s EAP reports
that in the Kyrgyz Republic during 2009 there were about 22 earthquakes with a
magnitude over three degrees on the Richter magnitude scale and over the last 20 years
there have been six large magnitude earthquakes ranging from 5.6 to 7.3 degrees. In our
discussions with staff about this issue, they agreed that the post could be better prepared
to respond to earthquakes.

According to the post’s EAP:

        Emergency Response Procedures (intruder, earthquake, bomb threat, fire, civil unrest) are
        reviewed through drills on a quarterly basis for staff and Volunteers in the PC office.

Earthquake drills have not been conducted in the office as prescribed in the EAP. The
Peace Corps office is equipped with two boxes that contain earthquake response supplies.
However, the boxes are sealed and most staff were not aware of their contents.
Earthquake drills will prepare the staff for an earthquake and raise awareness of available
earthquake response resources.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                        7
                We recommend:

                    7. That the country director include earthquake drills in
                       the post’s emergency response procedure testing
                       activities.

MANAGEMENT CONTROLS

A key objective of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and
agency priorities. To address these questions, we assess a number of factors, including
staffing; staff development; office work environment; performance data collection and
reporting; and the post’s strategic planning and budgeting.

In reviewing the post’s relationship with the U.S. Embassy in the Kyrgyz Republic, OIG
found no significant areas of concern that would necessitate action by the post. The
country director (CD) is an active participant in country team meetings and meets
frequently with the DCM, who was the acting ambassador at the time of the evaluation.
The regional security officer (RSO) and SSC communicate frequently and have a strong
collaborative relationship.

Staff roles, responsibilities, and office operations are being re-established after a
period of transition and staff turnover.

The CD, who entered on duty in June 2009, had previously served as the DMO. He
served as the acting CD during some of the emergencies in 2010 and impressed
Headquarters staff with his leadership skills under challenging circumstances. He was
promoted to CD in November 2010. Post staff and Volunteers were satisfied with
leadership from the CD. The DPT entered on duty in October 2009 and programming
and training unit (PTU) staff were satisfied with his leadership and support.

The post had recently experienced several challenges related to staff management.
Statements of work and pay grades for staff were out of alignment due to chronic
understaffing of U.S. Direct Hire (USDH) positions (this finding is further detailed
below). The DPT position was vacant for ten months from February-November 2009.
During this period the CD managed programming and training responsibilities with
support from programming and training staff. The additional workload was a cause of
stress for the CD and took time away from other important post management issues,
particularly during PST. The current DPT reported that upon his arrival he found it
challenging to assume his role and responsibilities. Programming staff had been
functioning for a long period with this position unfilled. In addition, after a long period
of receiving management and guidance directly from the CD, the DPT had to establish
his management and oversight role with the PTU staff. As a result, the DPT reported that
he was not effective in his role until he had been at the post for more than six months.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                              8
A regional staffing issue also impacted the post. The regional Peace Corps Safety and
Security Officer (PCSSO) position was vacant from the spring of 2009 until December
2010, a period of more than a year and a half. The SSC had not developed supporting
relationships with other SSCs in the sub-region, which the PCSSO attributed to the
position vacancy. The PCSSO also noted that the post hired a safety and security
assistant without the required approval from the Office of Safety and Security. When the
PCSSO arrived at the post in December 2010 he found his work challenging due to staff
confusion about his role and his authority over the SSC position. Since the PCSSO
position was filled in December 2010, the CD and PCSSO had met to develop a work
plan and clarify roles and authorities, and both reported that progress had been made.
The SSC had begun to approach the PCSSO for technical guidance and training
development.

We found that the post has worked to resolve many of these staff management issues and
operations had become more settled. Senior staff were focused on further improving
staff relations and office operations.

Key PC/Kyrgyz Republic operations were weakened by poor budget and resource
planning.

Peace Corps issues annual strategic planning and budgeting guidance as part of the IPBS
process. Posts are encouraged to hold planning sessions and a retreat to engage staff with
the process. Additional guidance appears in Peace Corps’s Characteristics and strategies
of a high performing post: Post Management Resource Guide:

        The country director and programming, training, medical, safety/security, and
        administrative staff all contribute directly to budget and resource planning, allocation,
        monitoring, and reporting. All sections are aware of, and responsible for, the planning
        and allocation of resources for their activities.

During the 2010 fiscal year the post failed to conduct effective budgeting and resource
planning in several important areas. Funding for essential 2011 PST items was not
requested through the regular budget submission process. Instead, the items were
requested through the field assistance request (FAR) process, which was designed to fund
supplementary programming and training activities. The FAR was denied and the
ensuing budget gap caused the loss of PST staff and resources. Both the Training
Manager (TM) and the DPT, who was new to the budget process, accepted responsibility
for budgeting mistakes.

The post’s funding request for in-country travel in FY 2011 was half the amount of the
previous year’s request. Staff reported that the request was lowered because sites were
closed in southern regions and staff anticipated less travel. However, staff did not
conduct on-going monitoring of expenditures to stay within the budget and staff did not
consolidate travel to economize vehicle usage. For instance, staff traveled in several
vehicles to the same location on the same day rather than travel in a single vehicle to the
location. As a result, most of the vehicle gasoline budgeted for FY 2011 had been spent
halfway through the fiscal year.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                        9
Step increases for personal service contract (PSC) staff, conferred annually with
satisfactory performance ratings when PSC contracts are renewed, were not included in
the FY 2011 budget. Soon after her arrival the DMO informed staff the step increases
had not been budgeted, which impacted staff morale. The DMO subsequently requested
the step increases through the mid-year review (MYR) process; however, approval of
funding is subject to availability of funds and regional priorities.
The SSC exhibited considerable confusion regarding the FY 2011 safety and security
budget, due primarily to the poor information or guidance provided to her. The SSC was
informed by administrative staff that her budget allocation had been reduced and
cancelled a safety and security warden training and site visits. However, the DMO later
confirmed that the warden training had been included in the FY 2011 budget. The
warden training would have trained replacements for wardens and deputy wardens who
returned home following the civil unrest.3 The cancelled site visits left a number of
Volunteers waiting for staff to facilitate introductions to their local police (this finding is
further detailed in a previous section of this report).

In our discussions with staff we were able to indentify several additional reasons why the
post experienced these budgeting problems. Staff explained that the former DMO, who
was replaced by the current CD, held tight control over budgeting and related
administrative operations and discouraged staff involvement. Following the DMO’s
departure, the administrative unit was poorly prepared to take over and their lack of
experience and expertise with budget operations led to errors and misinformation. The
CD, who began his tenure at the post as the new DMO, also described challenges
aligning his private sector accounting experience with public sector budgeting.

The Kyrgyz revolution in April 2010 also impacted budget and resource planning
because administrative operations took a back seat to safety and security operations. Due
to time and resource constraints in addition to pressures on the DMO, who held acting
CD responsibilities off and on from June-October 2010, the 2011 budget was quickly
planned and the CD was unable to organize an all-staff IPBS retreat.

A new and experienced DMO arrived at the post in February 2011. The DMO has begun
the process of identifying and addressing inefficiencies, improving internal controls, and
implementing forward-planning activities. She has also begun to establish goals to
improve the administrative unit by balancing the work load, increasing staff capacity, and
developing a more efficient staff structure.

                 We recommend:

                     8. That the country director and director of
                        management and operations develop a plan and
                        timetable for budget development and ensure
3
 Due to the civil unrest in 2010 some Volunteers received interrupted service or early close of service
(COS) and returned home. The number of Volunteers in-country decreased from 165 in April to 90 at the
end of July 2010.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                          10
                        that staff contribute directly to budget and
                        resource planning.

Performance data was not effectively collected and reported.

As part of the annual project status reporting (PSR) process, Volunteers in the post are
required to submit quarterly reports using the Volunteer Reporting Tool (VRT). This
performance data is reported to Peace Corps headquarters through the PSR process and
used in the agency-wide aggregation included in the agency’s Performance and
Accountability Report (PAR). Volunteer performance reports are necessary to meet
agency reporting requirements and, if used effectively, they can also play an important
role in ensuring good staff communication, support, and timely responsiveness to
problems experienced by Volunteers.

Volunteers are trained to complete data tracking books to collect the required
performance data, however only one of the 19 Volunteers we interviewed has used this
tool. Volunteers demonstrated a lack of understanding regarding the agency’s use of
performance data and did not believe that staff read or valued their reports. As a result,
Volunteers collected and reported performance data half-heartedly. Volunteers told us
that they estimated their performance data and some Volunteers completed the VRT from
memory alone. The DPT acknowledged that the VRT includes data that is inaccurate.

Agency guidance provided to posts4 includes two strategies for improving performance
reporting: (1) Volunteers should understand how the data will be used; and (2) staff
should provide timely feedback to Volunteer reporting forms (VRFs). Programming staff
acknowledged that they usually only provide VRF feedback to answer a questions raised
by a Volunteer. Staff are interested in providing more feedback but they have been
reluctant to use the report feedback capabilities of the Volunteer Information Database
Application (VIDA), which they said was more laborious and time-consuming than
simply calling Volunteers.

                We recommend:

                    9. That the director of programming and training ensure
                       that Volunteers are fully informed and knowledgeable
                       about the role of the Volunteer Reporting Form in the
                       agency’s reporting structure.

                    10. That the director of programming and training require
                        programming staff to provide timely and substantive
                        Volunteer reporting form feedback to Volunteers.




4
 Programming and Training Guide 2/4, Project Design and Evaluation; Programming and Training Guide
4/4, Management and Implementation.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                     11
The post has not carried out a planned review of staff statements of work and pay
grades.

According to Peace Corps’s Characteristics and strategies of a high performing post:
Post Management Resource Guide:
        When conditions change, jobs must change with them. Job descriptions, section
        organization, and channels of responsibility must be re-evaluated regularly and brought
        up-to-date to correspond with the present needs and realities.

The post’s FY 2012-2014 IPBS states that some positions may require re-grading due to
“years of tight budgets and chronic understaffing of USDH positions.” Interviews
confirmed that staff believe some positions are undercompensated. According to the FY
2012-2014 IPBS the CD and DMO need to review statements of work and grades for
most staff, in addition to comparing grades with other posts in the region. The
completion of this task will bring statements of work and pay grades up-to-date and
improve staff morale.

                We recommend:

                     11. That the country director and director of management
                         and operations review statements of work and grades
                         for staff to ensure that staff are compensated
                         appropriately.


PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented
programs intended to increase the capacity of host country communities to meet their
own technical needs. To determine this, we analyzed the following:

        The coordination between the Peace Corps and the host country in determining
        development priorities and Peace Corps program areas;
        Whether the post is meeting its project objectives;
        Counterpart selection and quality of counterpart relationships with Volunteers;
        Site development policies and practices.

In 2010 the Kyrgyz Republic experienced extensive turnover in ministry personnel
caused by the revolution and parliamentary elections. As a result of the turnover there
has been a lack of direction from ministries regarding the programmatic direction of
PC/Kyrgyz Republic. There has also been a loss of direction on the part of counterparts,
who drifted without governmental leadership for an extended period of time. At the time
of the evaluation, the DPT and program managers (PMs) were prioritizing the
development of new partnerships, clarifying partner roles, signing new memoranda of
understanding (MOUs) and establishing program advisory committees (PACs).



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                      12
Overall, the post has been meeting its project objectives. All of the 19 Volunteers we
interviewed had a sufficient understanding of their sector goals and objectives.
Interviews with Volunteers indicated that they believe host country development needs
are aligned with their project’s objectives. Ninety-four percent of the Volunteers (17 of
18) reported overall satisfaction with their sites, with a 4.4 average. Volunteers felt well-
integrated with their host communities. Ninety-four percent of the Volunteers (16 of 17)
were satisfied with their working relationships with their counterparts and their
counterparts’ support of their project objectives.

Programming in the TEFL sector is particularly strong. TEFL Volunteers reported they
are busy with their primary activities and having success accomplishing project
objectives. One of the TEFL PMs had the highest possible average Volunteer support
rating of 5. Volunteers reported she was proactive, knowledgeable, and always available
to discuss programming and other support issues.

SOCD Volunteers work principally with NGOs and CBOs at the grassroots level. These
organizations are often poorly funded and staffed, and frequently are not engaged in
sustainable activities. The SOCD PM, who has also previously worked in the Kyrgyz
NGO sector, explained that NGOs operate in an unstable environment where priorities
change frequently to align with the interests of international donors. As a result, NGOs
are unstructured and do not have an organized work plan and Volunteers find it
challenging to establish structured work activities.

Health Volunteers work in a variety of areas of the country and experience a range of
challenges with their host partner agencies. Health Volunteers reported difficulties
finding a functional, health-focused partner agency to work with. One Volunteer partner
group, Village Health Committees (VHCs), is staffed by community volunteers. The
VHC community volunteers are often poorly motivated due to the unpaid positions and
competing priorities that such staff typically function under.

Despite these challenges, Volunteers in both the SOCD and HE sectors have been
satisfied with the work support they’ve received from their PMs. Programming staff
support ratings in both sectors were 100 percent favorable. The Volunteers were most
appreciative of their program staff’s enthusiasm and willingness to help them problem-
solve.

Volunteers were dissatisfied with grant support provided by the post’s staff.

The post operates grant programs that Volunteers can apply to for project funding,
including Small Project Assistance (SPA) grants. According to Peace Corps’ SPA
Program Handbook, “All SPA project criteria should be clearly communicated to
Volunteers…Posts must ensure that SPA guidelines, deadlines, and review procedures
are effectively communicated to Volunteers.”

Five of the 19 Volunteers we interviewed had worked on SPA grants. Two of the
Volunteers were dissatisfied overall with grant support from post staff and all five


Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                               13
Volunteers reported issues with technical guidance and communications from the post’s
SPA coordinator. Volunteer comments included:

        “The guidance I got from [the SPA coordinator] was poor. She said the proposal was
        fine but the committee denied it…I asked her questions but did not get helpful
        responses.”

        “It's really hard to get her on the phone or responding to emails. She'll ignore messages.”

In addition to the complaints about SPA, six Volunteers, five with no SPA involvement,
reported similar problems with another grant program coordinated by the SPA
coordinator. These grants were available through the Manas transit center, a U.S.
military airbase located near Bishkek. Volunteers were unable to determine the status of
their base-funded projects and described a lack of responsiveness by the grant
coordinator. Frustrated by the lack of information, several Volunteers contacted the base
directly, jeopardizing the post’s relations with base personnel. The grant coordinator also
described frustration with the transit center grant process, which she attributed to frequent
staff rotations, project backlogs and time-consuming clearance procedures. However, the
grant coordinator assumed Volunteers were frustrated but failed to communicate to
Volunteers the delays caused by the transit center.

                 We recommend:

                     12. That the country director ensure that Volunteers
                         receive adequate staff support and communication
                         regarding their grant programs.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such
factors as:

        Training adequacy;
        Planning and development of the training life cycle;
        Staffing and related budget.

In reviewing the post’s process for planning and developing training, OIG found no
significant areas of concern that would necessitate action by the post. Volunteers
reported high levels of satisfaction with the effectiveness of PST in the areas of language,
safety and security, and medical training. Volunteers were also satisfied with their PST
home-stay families; in-service trainings (ISTs); project design and management trainings
(PDMs); warden training; and PEPFAR training.

It should be noted that the 2010 PST for K18s was significantly impacted by the
revolution and related consolidation activities. The revolution occurred shortly after

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                          14
trainees arrived at PST in April 2010 and training activities had to be improvised over a
10-day period while trainees were consolidated. Volunteer satisfaction levels with the
effectiveness of technical and cross-culture training were adequate, though lower than
other areas (see Table 2 below).

                            Table 2: How Effective Was PST Training?
              Training area                 Percent Favorable (3,4,5)          Average Response
                                                                                    Rating
    Language                                           95%                           3.9
    Cross-culture                                      79%                           3.2
    Safety & Security                                 100%                           4.1
    Medical                                           100%                           4.4
    Technical                                          79%                           3.2

Volunteers felt that cross-culture training would have been more effective if sessions
were led by host country national (HCN) staff, rather than by Volunteers. The DPT
reported that HCN staff roles in training would be expanded with the K195 PST and that
host country language and cultural facilitators (LCFs) had already received training to
facilitate cross-cultural sessions.

Health and SOCD Volunteers were less satisfied with technical training than TEFL
Volunteers. They felt the technical sessions facilitated by Volunteer trainers were not as
practical as other sessions. The DPT has implemented new selection criteria intended to
improve the quality of Volunteer trainers. The DPT will assess Volunteer trainers for
training ability, leadership skills, and language ability to increase the effectiveness of
technical training. The DPT shifted responsibilities for technical training from
contractors to program managers, which should also positively impact the quality of the
PST. The DPT commented:

           “Last year I learned that the PMs were not doing any training…it made no sense…they
           can all do this better than the TCFs they hired to do it last year.”

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR)

Another objective of this post evaluation is to answer the question “is the post able to
adequately administer the President’s Emergency Plan for AIDS Relief (PEPFAR)
program, support Volunteers, and meet its PEPFAR objectives?” To answer this
question, we evaluate:

           Whether the post is implementing its PEPFAR objectives as laid out in the annual
           implementation plan.
           Relationships between the post and coordinating partners.
           Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling
           related challenges.


5
    The post’s nineteenth group of Volunteers.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                      15
Central Asia is experiencing an HIV epidemic. Preventing the spread of HIV/AIDS is
one of four priorities identified in a Kyrgyz government health care reform program.
Interrupting the epidemic is also a priority of the Office of the U.S. Global AIDS
Coordinator (OGAC) Central Asia office based in Almaty, Kazakhstan. The post
implemented PEPFAR programming in 2007 to join this effort. Fifteen of the 19
Volunteers we interviewed were involved in a range of HIV/AIDs activities. The CD and
programming staff feel that the post’s PEPFAR activities are appropriate due to regional
and national priorities.

The post’s PEPFAR budget increased from $20,000 in 2009 to $125,000 in 2010,
however the post was unable to meet its spending targets in 2010 due to the civil unrest
that led to the departure of Volunteers and closure of the southern region6. In order to
meet spending targets the post’s PEPFAR PM reported plans to realign the use of those
funds with additional life-skills trainings, a strategy supported by the CD and DPT.
Twenty-eight Volunteers and thirty counterparts attended a PEPFAR life-skills training in
December 2010, including seven Volunteers in our sample. They were all satisfied with
the life-skills training and gave it the highest score of post’s training programs, with an
average rating of 4.6.




6
 In June 2010, Volunteers were evacuated from southern regions, including Osh, and all programming in
southern regions was suspended. The number of Volunteers in-country decreased by roughly 45%, from
165 in April to 90 at the end of July 2010.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                            16
             OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps OIG was established under the
Inspector General Act of 1978 and is an independent entity within the Peace Corps. The
Inspector General (IG) is under the general supervision of the Peace Corps Director and
reports both to the Director and Congress.

The evaluation unit within the Peace Corps OIG provides senior management with
independent evaluations of all management and operations of the Peace Corps, including
overseas posts and domestic offices. OIG evaluators identify best practices and
recommend program improvements to comply with Peace Corps policies.

The OIG evaluation unit announced its intent to conduct an evaluation of the PC/Kyrgyz
Republic on January 21, 2011. For post evaluations, we use the following researchable
questions to guide our work:

    To what extent has the post developed and implemented programs to increase host
    country communities’ capacity?
    Does training prepare Volunteers for Peace Corps service?
    Has the post provided adequate support and oversight to Volunteers?
    Are the post’s resources and agency support effectively aligned with the post’s
    mission and agency priorities?
    Is the post able to adequately administer the PEPFAR program, support Volunteers,
    and meet its PEPFAR objectives?

The evaluator conducted the preliminary research portion of the evaluation from January
24 to March 3, 2011. This research included review of agency documents provided by
headquarters and the post’s staff; interviews with management staff representing the
EMA region, office of AIDS relief (OAR) and overseas programming and training
support (OPATS); interviews with former staff and Volunteers; and inquiries to the office
of safety and security, office of private sector initiatives (OPSI), office of
intergovernmental affairs and partnerships, Volunteer recruitment and selection (VRS),
office of medical services (OMS) and OIG audits and investigations.

In-country fieldwork occurred from March 7-25, 2011 and included interviews with the
post’s senior staff in charge of programming, training, and support; the U.S, deputy chief
of mission and acting ambassador; the embassy regional security officer; the assistant
regional security officer; and host country ministry of health officials. In addition, we
interviewed a stratified judgmental sample of 19 Volunteers (25 percent of Volunteers
serving at the time of our visit) based on their length of service, site location, project
focus, gender, age, marital status and ethnicity.



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                            17
This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the Council of the Inspectors General on Integrity and Efficiency. The
evidence, findings, and recommendations provided in this report have been reviewed by
agency stakeholders affected by this review.


                            INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 19 Volunteers, 16 staff
members in-country, and 19 representatives from Peace Corps headquarters in
Washington D.C., the U.S. Embassy in the Kyrgyz Republic, and key ministry officials.
Volunteer interviews were conducted using a standardized interview questionnaire, and
Volunteers were asked to rate many items on a five-point scale (1 = not effective, 3 =
average effective, 5 = very effective). The analysis of these ratings provided a
quantitative supplement to Volunteers’ comments, which were also analyzed. For the
purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, 13 out of 19 Volunteer interviews occurred at the Volunteers’
homes, and we inspected these homes using post-defined site selection criteria. The
period of review for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire
Volunteer population in the Kyrgyz Republic; the Volunteer sample was selected to
reflect these demographics.

                            Table 3: Volunteer Demographic Data
                                                                         Percentage of
                                  Project
                                                                          Volunteers
             Teaching English as a Foreign Language                          60%
             Sustainable Organizational and Community                        25%
             Development
             Health Education                                                16%
                                                                         Percentage of
                                  Gender
                                                                          Volunteers
             Female                                                          52%
             Male                                                            48%
                                                                         Percentage of
                                    Age
                                                                          Volunteers
             25 or younger                                                   39%
             26-29                                                           44%
             30-50                                                           14%
             50 and over                                                      3%
            Source: February 2011 PC/Kyrgyz Republic Volunteer roster.
            Note: Percentages may not total 100% due to rounding.

At the time of our field visit, the post had 44 staff positions. The post also employs
temporary staff/contractors to assist with PST. We interviewed 16 staff members.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             18
              Table 4: Interviews Conducted with the post’s Staff Members
                           Position                          Status    Interviewed
    Country Director                                      USDH              X
    Director of Programming and Training                  USDH              X
    Director of Management and Operations                 USDH              X
    Training Manager                                      PSC               X
    Program Manager (6)                                   PSC               X
    Safety and Security Coordinator                       PSC               X
    Peace Corps Medical Officer (2)                       PSC               X
    Peace Corps Safety and Security Officer (regional)    USDH              X
    Language and Cultural Coordinator                     PSC               X
    Country Director Asst./External Resource Coordinator  PSC               X
    Financial Assistant                                   FSN
    Cashier                                               FSN
    IT Specialist                                         PSC
    Volunteer Support Assistant                           PSC
    Administrative Assistant                              PSC
    Safety and Security Assistant                         PSC
    Medical Assistant                                     PSC
    Training Assistant                                    PSC
    Program Assistant                                     PSC
    General Services Officer                              PSC
    Head Guard                                            PSC
    Drivers (5)                                           PSC
    Guards (10)                                           PSC
    Maintenance (2)                                       PSC
  Data as of February 2011.

Nineteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork, and follow-up work upon return to Peace Corps
headquarters in Washington, D.C.

Table 5: Interviews Conducted with PC/Headquarters Staff, Embassy Officials and Key
                                   Ministry Officials
                     Position                             Organization
  Regional Director                               PC/Headquarters/EMA Region
  Chief of Operations                             PC/Headquarters/EMA Region
  Chief of Programming and Training               PC/Headquarters/EMA Region
  Chief Administrative Officer                    PC/Headquarters/EMA Region
  Country Desk Officer                            PC/Headquarters/EMA Region
  Safety and Security Desk Officer                PC/Headquarters/EMA Region
  Roving Country Director                         PC/Headquarters/EMA Region
  Director                                        PC/Headquarters/OAR
  Administrative Officer                          PC/Headquarters/OAR
  Cross-Culture and Diversity Training
                                                  PC/Headquarters/OPATS
  Specialist


Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             19
  Evaluation Specialist                                 PC/Headquarters/OPATS
  Kyrgyz Republic Returned Volunteer                    PC/Headquarters
  Kyrgyz Republic Temporary Duty Staffer                PC/Headquarters
  Deputy Chief of Mission (acting Ambassador)           US Embassy in Kyrgyz Republic
  Regional Security Officer                             US Embassy in Kyrgyz Republic
  Assistant Regional Security Officer                   US Embassy in Kyrgyz Republic
  Deputy Minister                                       Ministry of Health
  Head, Public Health Unit                              Ministry of Health
  Director                                              Republican Health Promotion
                                                        Center
  Data as of February 2011.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                            20
                        LIST OF RECOMMENDATIONS
WE RECOMMEND:

    1. That the safety and security coordinator conduct emergency action plan
       revision and briefing activities that include all staff with emergency action
       plan roles and responsibilities.

    2. That the safety and security coordinator conduct training for all staff with
       emergency action plan roles and responsibilities.

    3. That the safety and security coordinator ensure that all Volunteers keep a
       current copy of the post’s emergency action plan at their homes.

    4. That the safety and security coordinator ensure that emergency action plan
       training and testing includes alternate communication/non-cell phone
       scenarios.

    5. That the country director and director of programming and training ensure
       that staff conduct Volunteer introductions with local police and civic
       leaders within acceptable timeframes.

    6. That the country director ensure that Volunteers in the Talas region of the
       Kyrgyz Republic have access to their passports during the winter.

    7. That the country director include earthquake drills in the post’s emergency
       response procedure testing activities.

    8. That the country director and director of management and
       operations develop a plan and timetable for budget development
       and ensure that staff contribute directly to budget and resource
       planning.

    9. That the director of programming and training ensure that Volunteers are
       fully informed and knowledgeable about the role of the Volunteer
       Reporting Form in the agency’s reporting structure.

    10. That the director of programming and training require programming staff
        to provide timely and substantive Volunteer reporting form feedback to
        Volunteers.

    11. That the country director and director of management and operations
        review statements of work and grades for staff to ensure that staff are
        compensated appropriately.


Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                           21
    12. That the country director ensure that Volunteers receive adequate staff
        support and communication regarding their grant programs.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                      22
APPENDIX A


    AGENCY’S RESPONSE TO THE PRELIMINARY REPORT
The OIG conducted a program review of PC/Kyrgyz Republic in March 2011. As
outlined in the August 2011 preliminary report, Senior Evaluator Reuben Marshall
evaluated and reviewed programming, training, Volunteer support, health and safety,
housing, sites and staff organization.

In keeping with the Peace Corps service mission, Post was pleased to facilitate travel to
several Volunteer sites for Mr. Marshall. He had the opportunity to visit 19 of the 78
Volunteers, personally observe the work Volunteers are doing in the field, and conduct
Volunteer interviews. He also interviewed 16 members of the staff in the Kyrgyz
Republic and 19 representatives from Peace Corps Headquarters.

PC/Kyrgyz Republic staff and Volunteers would like to acknowledge the work of Mr.
Marshall, who conducted his duties with a high degree of professionalism and cultural
sensitivity.

Post and Region concur with all 12 recommendations provided by the OIG. Post has
provided due dates for the implementation of the recommended changes. These dates are
based on two assumptions: that there will not be any new incidents of civil unrest in the
Kyrgyz Republic in the next year, and that Post will be fully staffed in the three USDH
management positions between now and those dates.

The PC/Kyrgyz Republic staff and the EMA Region understand there is always room for
improvement and we appreciate the insight and information provided by the Peace Corps
Office of the Inspector General.

1. That the safety and security coordinator conduct emergency action plan revision
and briefing activities that include all staff with emergency action plan roles and
responsibilities.
Concur
Staff receives at least annual training in the EAP as demonstrated by the very successful
response that was developed and executed by the Emergency Action Committee during
the civil unrest in April, May, and June. The ability of the Programming Unit to
participate in the response was weakened by having to move the training program to the
consolidation point. The DPT lived at the consolidation point for weeks, executing the
training program under very trying circumstances, while the CD worked with the
Embassy and headquarters, and DMO coordinated support from the office. It was a
stressful time, but the evacuations and consolidations went well and PST received high
marks on the evaluations.
Following the events of last year, the EAP was updated and staff was trained on the new
version. A copy of the EAC checklist from October 2010 is attached.
Emergency preparedness, particularly for times of civil unrest, remains a high priority for
Post. Post will conduct a series of trainings that will include the Programming Unit.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                23
APPENDIX A


        The Safety and Security Coordinator will conduct an EAP training session
        that will include a review of changes made to the EAP in the last year. The
        session will include all members of the staff who may have a role in the event
        of an emergency.
        Completion Date: December 15th, 2011
         Documents to be included:
               EAP Checklist
               Agenda of Training
               e-Copy of EAP

2. That the safety and security coordinator conduct training for all staff with
emergency action plan roles and responsibilities.
Concur
        The Safety and Security Coordinator will conduct an EAP training session
        for all members of the staff who may have a role in the event of an
        emergency.
        Completion Date: December 15th, 2011
        Documents to be included:
                EAP Checklist
                Agenda of Training
                e-Copy of EAP

3. That the safety and security coordinator ensure that all Volunteers keep a current
copy of the post’s emergency action plan at their home.
Concur
All Peace Corps Trainees are provided with a copy of the EAP during PST. All
Volunteers are expected to return their copy when they COS, and the great majority do.
It is evident, however, that some Volunteers are prone to misplacing their copies.
         All Volunteers will be sent an electronic copy of the EAP. Staff will verify
         that the Volunteers have received a copy and can access it on request. PCVs
         are required to keep a current copy at their residences.
         Because the size of the EAP makes it inconvenient to carry, the SSC will
         provide every Volunteer with a printed version of Appendix L of the EAP.
         Appendix L is the abbreviated version of the EAP that is portable and less
         prone to loss.
         Completion Date: By November 15th, 2011.
         Documents to be included:
                 copy of Appendix L
                 EAP Distribution Memo (Appendix L)




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                         24
APPENDIX A


4. That the safety and security coordinator ensure that emergency action plan
training and testing includes alternate communication/non-cell phone scenarios.
Concur
The housing checklist requires that all Volunteers have access to a landline at their office
and at their home, or within a 30 minute walk from their home. Landline numbers are
recorded in VIDA. The accuracy of the numbers in VIDA is tested on a random basis
throughout the year.
Post received four satellite phones in 2011. The phones have been given to the wardens
in Issyk Kul (2), Naryn (1), and Talas (1) oblasts. A fifth phone is kept in the office for
the Chui Volunteers. The phones are tested four times a year. The VIDA database has
the frequencies for the radio stations Volunteers can hear in their communities. EAP
training for Volunteers also includes instructions on what Volunteers should do if there
are no cell or landline communications or if they lose contact with the headquarters office
in Bishkek.
        The SSC will conduct tests of landline communications to all Volunteers at
        least once a year after the trainees have moved to their permanent sites.
        Completion Date: The next test will be conducted by November 15, 2011.
        Documents to be included:
                 Revised EAP
                 Memorandum on results of the next communications test

5. That the country director and director of programming and training ensure that
staff conduct Volunteer introductions with local police and civic leaders within
acceptable timeframes.
Concur
Post set a high standard for introductions of new Volunteers to the local police in 2009.
The SSC personally organized meetings of Volunteers with militsia at the oblast and
rayon levels. She made numerous visits to sites and developed strong personal relations
with the senior officers in the militsia offices. Her familiarity with sites and her contacts
proved to be very valuable during the civil unrest events in 2010. They also helped staff
evaluate sites for safety and respond to individual emergencies.
This practice has been changed in 2011 for 2 reasons:
        The SSC SOW was altered at headquarters to transfer the responsibility of PCV
        site visits to Program Managers.
        Budget cut backs made it necessary to reduce travel for all staff, delaying
        opportunities for staff to visit Volunteers at their sites until three months after
        their arrival.

In response to these environmental changes, staff modified the model for introducing
Volunteers to local militsia and civic leaders. The new model, which retains many
elements of the old model, is,




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                25
APPENDIX A


        Host families and counterparts are trained at PST on the importance of
        introducing Trainees and Volunteers to the district militsia and community leaders
        within one month after their arrival at site.
        Trainees are instructed at PST on the importance of this meeting and told to press
        their family and counterpart for the introduction if it doesn’t happen within a
        month.
        If PST includes a site visit, counterparts and host family members are asked to
        introduce their trainee to the local militsia and civic leaders during the visit. This
        item is on the checklist Trainees receive when they make their initial site visits
        and included in Host Agency Agreements as one of the responsibilities of a
        counterpart or director.
        Whenever there is overlap between Volunteers at a site, the preceding Volunteer
        is instructed to introduce the new Volunteer to the militsia and community leaders
        before his or her departure.
        Within one month of their arrival at their permanent sites, the Safety & Security
        Assistant (SSA) will contact all new Volunteers to confirm that the introductions
        have been made and report the results to the Country Director and Director of
        Programming and Training.
        Program Managers visit all new Volunteers at their sites about four months after
        their arrival. For Volunteers who have not yet had their introductions, the SSA
        will work with the Program Managers to plan those meetings.
        This year Post shifted to holding ISTs in the regions. At each session the head of
        the oblast militsia is invited to the IST to meet the Volunteers. The militsia heads
        brief the Volunteers on the safety situation in the region and provide cell phone
        numbers for emergencies.
        Normal New Year’s gifts to oblast and rayon militsia chiefs are distributed as
        staff members make their site identification visit in December and January. At
        that time the staff member will reinforce the importance of good relations
        between the Volunteers and their officers.

In addition, the Safety & Security Coordinator has negotiated an emergency assistance
agreement with the Ministry of Emergency.
        The new model was put into action in Q1 2011, but not documented or
        communicated to Volunteers. Staff will document the new procedures and
        ensure that all appropriate staff members are trained in the new procedures.
        Volunteers will be informed of the model.
        Staff will survey all Volunteers by e-mail and phone to find out if they have
        been introduced to local militsia and civic leaders.
        Completion Date: Mid-December 2011.
        Documents to be included:



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                               26
APPENDIX A


                New procedures for introducing Volunteers to local militia (with
                timeframe)
                Volunteer Survey on Introductions results

6. That the CD ensure that Volunteers in the Talas region of the Kyrgyz Republic
have access to their passports during the winter.
Concur
Last year Post had a single Trainee intake in March. Post collected Volunteer passports
during the winter in order to update their Kyrgyz and Kazakh visas before their one year
expiration date. The expiration date was set by the arrival date of trainees. All visas are
for one year and take a couple months to process, so Volunteers were without their PC
passports in January and February. We asked the Kyrgyz Ministry of Foreign Affairs and
the Kazakh Consulate if they could lengthen the term of the visas to avoid this problem,
but they declined.
For most Volunteers the timing was not a major problem. They have their personal
passports for international travel, and they can purchase a new visa at the airport when
they return. The timing is a problem for Volunteers in Talas who sometimes need to
travel to Bishkek via Kazakhstan because the pass is closed by snow.
        For current Volunteers in Talas, Post will give them the highest priority for
        processing. We will send a vehicle out to collect the passports as close to
        their expiration date as possible and work closely with the two governments
        to speed the process. A driver will return the passports to the Talas
        Volunteers as quickly as possible.
        For several reasons, Post has decided to delay the start of PST by six weeks,
        to the middle of May, starting in 2012. This change, combined with the
        driver prioritizing the Talas passports, will mitigate the visa problem for
        future training groups.
        Completion Date: By December 15th, 2011
        Documents to be included:
                Memo on Visa Processing from CD
                eCTSS (demonstrating that the input date has been changed to May)

7. That the country director includes earthquake drills in the post’s emergency
response procedure testing activities.
Concur
A mountainous country, Kyrgyzstan is prone to earthquakes. The great majority are
small and cause little damage, but there have been major earthquakes with significant loss
of life and damage to infrastructure. During the last year the quarterly emergency
response drills at the office have focused on responding to civil unrest.
Post is exploring specialized training in earthquake response provided by the Red
Crescent and the Ministry of Emergencies.



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             27
APPENDIX A


        The next quarterly emergency response drill at the office will focus on an
        earthquake scenario.
        Completion Date: By December 15th, 2011.
        Documents to be included:
              CD Memo on Earthquake Drill Results

8. That the country director and director of management and operations develop a
plan and timetable for budget development and ensure that staff contribute directly
to budget and resource planning.
Concur
Post staff believes strongly in the importance of including all units in planning and
budgeting. Since the current CD came to post as DMO, staff has always participated in
the development of the operating plan, mid-year reviews, and IPBS. Due to staffing and
budgetary restrictions there was no offsite IPBS retreat in 2011. Instead a workshop was
held in the office. Participation was open to all staff and mandatory for certain key staff
members. Eighteen out of an office staff of 23 participated in the workshop and helped
shape the IPBS for 2012 – 2014.
It should be noted that Post was without a full time DMO from October 7, 2010 to
February 19, 2011. The current DMO was just getting up to speed during the time of Mr.
Marshall’s visit, so she had not yet reviewed the 2011 operating plan with all members of
the staff.
        To prepare the FY 11 Mid-Year Review and FY 12 Operating Plan, the
        DMO worked closely with all units. The DMO has briefed Senior Staff on
        the FY2012 budget submittal. She provided a briefing for staff on the final
        budget after it was approved by headquarters. All members of the staff will
        be provided with a final copy of their sections of the operating plan.
        Completion Date: November 15, 2011
        Documents to be included:
                Ops Plan Memo FY12
                Ops Plan Powerpoint Presentation for Staff

9. That the director of programming and training ensure that Volunteers are fully
informed and knowledgeable about the role of the Volunteer Reporting Form (VRF)
in the agency’s reporting structure.
Concur
VRF training is being conducted as part of IST. Training is conducted by the Training
Manager in partnership with the Program Managers using a standard PowerPoint
presentation. The training provides Volunteers with a good overview of the importance
of VRF data and how it is used.
       Post has incorporated information on how VRF data is used and its
       importance to the Peace Corps into IST.
       Completion Date: K-19 IST Completed in September 2011
       Documents attached:
               VRF Powerpoint Presentation for Volunteers

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             28
APPENDIX A


                Training Handout: Understanding How the VRT Displays Data
                Training Handout: PCV Quickstart Guide 2010

10. That the director of programming and training require programming staff to
provide timely and substantive Volunteer reporting form feedback to Volunteers.
Concur
Programming staff has been expected to provide timely feedback to Volunteers on their
VRF submissions. Mr. Marshall’s interviews reveal that compliance has been uneven.
The CD and acting DPT discussed the importance of providing timely, constructive, and
specific comments to Volunteers on their VRF submissions at a recent meeting. The
Program Managers are in full support of the policy. The CD and acting DPT have
personally emphasized the importance of accurate reporting to the Volunteers at the first
two IST sessions.
        The acting DPT is working with the Program Managers to ensure that
        Volunteers will receive timely comments on a consistent basis. She will
        review their comments for compliance with the policy.
        Completion Date: December 15, 2011
        Documents to be included:
               Sample VRF feedback comments from PMs to Volunteers.

11. That the country director and director of management and operations review
statements of work and grades for staff to ensure that staff members are
compensated appropriately.
Concur
Post management believes strongly in the importance of properly compensating staff and
continues to work with Region to make changes. With the FY11 Mid-Year Review, Post
was successful in up-grading a PCMO and the Medical Assistant to more appropriate
levels with the invaluable support of OMS. Post believes that several other positions are
not appropriately graded when compared to other posts. Region was not able to fund
compensation increases in the FY12 Operating Plan, but the CAO has been very
supportive of submitting an Unfunded Request at the Mid-Year Review.
        The DMO has begun the process of CAJE’ing the two Foreign Service
        Nationals at Post. When we get a new DPT, he or she will be tasked with
        reviewing and updating the statements of work for the Program Managers
        and Training Manager. Management will work with Region to determine
        which positions, if any, need to be re-graded.
        Completion Date: March 2012. Complete re-classifications and proposed
        changes to compensation to Region for funding as part of the FY12 Mid-Year
        Review in March 2012. Some Program and Training Unit changes may have to
        wait for a new DPT.
        Documents to be included:
                Memo from CD on HR actions taken



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                            29
APPENDIX A


12. That the country director ensure that Volunteers receive adequate staff support
and communication regarding their grant programs.
Concur
Post is extremely fortunate to have access to a number of sources of funding for
Volunteer projects. Post is the second largest user of PCPP, after the Ukraine. We have
worked with USAID to manage a Small Projects Assistance grants program, and our
Volunteers have helped their community successfully compete for major grants from
USAID’s Office of Transition Initiatives. Last year the Manas Transit Center launched a
Humanitarian Assistance (HA) program. With the help of the Country Director’s
Assistant and External Relations Coordinator, Volunteers facilitated delivery of blankets
and overcoats to orphans and low income families in their villages.
In early 2010 the Humanitarian Assistance program changed direction, expanding the
program to include construction projects, and reaching farther out into the country. As
the same time, shifting priorities and staff turnover at the Transit Center meant that some
projects and scheduled delivery dates got pushed out. Volunteers and communities that
were expecting donations became frustrated. The External Relations Coordinator got
caught in the middle.
Most recently, USAID has asked Post to double SPA grants, and the Transit Center is
developing new Humanitarian Assistance programs, such as winter coal for low income
families. Post is now eligible to participate in the USAID Feed the Future program,
creating new grant opportunities for Volunteers’ communities.
The External Relations Coordinator has re-doubled her communications with Volunteers
and convened special meetings of the Volunteer SPA Committee to process additional
grant applications.
        The External Relations Coordinator will conduct a survey of Volunteers to
        determine their satisfaction with the management of the SPA and HA
        programs. Based on the results of the survey, she will work with the CD and
        SPA grants committee to determine what procedural changes need to be
        made, if any.
        The Country Director will review the CDA/External Relations Coordinator’s
        statement of work to determine if it needs to be modified in light of the
        growth in the grants programs. The Country Director will also consult with
        the DMO and DPT to see if some elements of the grants management process
        can be beneficially moved to their organizations.
        Staff will develop a summary page of SPA and HA grant guidelines, bringing
        together the multitude of funding opportunities and application
        requirements. The summary will be sent to all Volunteers by e-mail, and
        covered in detail at the K-19 Project Design and Management workshop in
        December.
        Completion Date: By January 15th, 2011
        Documents to be included:
                Summary of SPA and HA grant guidelines (as sent to Volunteers)




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             30
APPENDIX B


                                  OIG COMMENTS
Management concurred with all 12 recommendations. In its response, management
described actions it is taking or intends to take to address the issues that prompted each of
our recommendations. We wish to note that in closing recommendations, we are not
certifying that the agency has taken these actions or that we have reviewed their effect.
Certifying compliance and verifying effectiveness are management’s responsibilities.
However, when we feel it is warranted, we may conduct a follow-up review to confirm
that action has been taken and to evaluate the impact.

All twelve recommendations remain open pending confirmation from the Chief
Compliance Officer that the documentation reflected in OIG Analysis is received.

    1. That the safety and security coordinator conduct emergency action
       plan revision and briefing activities that include all staff with
       emergency action plan roles and responsibilities.

        Concur: Staff receives at least annual training in the EAP as demonstrated by the
        very successful response that was developed and executed by the Emergency
        Action Committee during the civil unrest in April, May, and June. The ability of
        the Programming Unit to participate in the response was weakened by having to
        move the training program to the consolidation point. The DPT lived at the
        consolidation point for weeks, executing the training program under very trying
        circumstances, while the CD worked with the Embassy and headquarters, and
        DMO coordinated support from the office. It was a stressful time, but the
        evacuations and consolidations went well and PST received high marks on the
        evaluations.

        Following the events of last year, the EAP was updated and staff was trained on
        the new version. A copy of the EAC checklist from October 2010 is attached.
        Emergency preparedness, particularly for times of civil unrest, remains a high
        priority for Post. Post will conduct a series of trainings that will include the
        Programming Unit. The Safety and Security Coordinator will conduct an EAP
        training session that will include a review of changes made to the EAP in the last
        year. The session will include all members of the staff who may have a role in the
        event of an emergency.

        Timeline for completion: December 15th, 2011

        Documents to be submitted:
             EAP Checklist
             Agenda of Training
             e-Copy of EAP



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                               31
APPENDIX B


        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of a copy of the EAP checklist, an e-Copy of
        the EAP, and an agenda of the EAP training. Please also provide documentation
        of an after-action debrief that includes all actors in the emergency activation
        (following the next EAP test or activation).

2. That the safety and security coordinator conduct training for all staff
   with emergency action plan roles and responsibilities.

        Concur: The Safety and Security Coordinator will conduct an EAP training
        session for all members of the staff who may have a role in the event of an
        emergency.

        Timeline for completion: December 15th, 2011

        Documents to be submitted:
             EAP Checklist
             Agenda of Training
             e-Copy of EAP

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of a copy of the EAP checklist, an e-Copy of
        the EAP, and an agenda of the EAP training provided to all staff with emergency
        action plan roles and responsibilities.

3. That the safety and security coordinator ensure that all Volunteers keep a
   current copy of the post’s emergency action plan at their homes.

        Concur: All Peace Corps Trainees are provided with a copy of the EAP during
        PST. All Volunteers are expected to return their copy when they COS, and the
        great majority do. It is evident, however, that some Volunteers are prone to
        misplacing their copies. All Volunteers will be sent an electronic copy of the
        EAP. Staff will verify that the Volunteers have received a copy and can access it
        on request. PCVs are required to keep a current copy at their residences. Because
        the size of the EAP makes it inconvenient to carry, the SSC will provide every
        Volunteer with a printed version of Appendix L of the EAP. Appendix L is the
        abbreviated version of the EAP that is portable and less prone to loss.

        Timeline for completion: November 15th, 2011

        Documents to be submitted:
             Copy of Appendix L
             EAP distribution memo (Appendix L)

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of a copy of appendix L of the EAP and a EAP

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                           32
APPENDIX B


        distribution memo which demonstrates that each Volunteer is provided with a
        printed version of appendix L of the EAP.

4. That the safety and security coordinator ensure that emergency action
   plan training and testing includes alternate communication/non-cell
   phone scenarios.

        Concur: The housing checklist requires that all Volunteers have access to a
        landline at their office and at their home, or within a 30 minute walk from their
        home. Landline numbers are recorded in VIDA. The accuracy of the numbers in
        VIDA is tested on a random basis throughout the year. Post received four satellite
        phones in 2011. The phones have been given to the wardens in Issyk Kul (2),
        Naryn (1), and Talas (1) oblasts. A fifth phone is kept in the office for the Chui
        Volunteers. The phones are tested four times a year. The VIDA database has the
        frequencies for the radio stations Volunteers can hear in their communities. EAP
        training for Volunteers also includes instructions on what Volunteers should do if
        there are no cell or landline communications or if they lose contact with the
        headquarters office in Bishkek.

        The SSC will conduct tests of landline communications to all Volunteers at least
        once a year after the trainees have moved to their permanent sites.

        Timeline for completion: November 15, 2011

        Documents to be submitted:
             Revised EAP
             Memorandum on results of the next communications test

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the revised EAP and a memorandum on the
        results of the next communications test.

5. That the country director and director of programming and training
   ensure that staff conduct Volunteer introductions with local police and
   civic leaders within acceptable timeframes.

        Concur: Post set a high standard for introductions of new Volunteers to the local
        police in 2009. The SSC personally organized meetings of Volunteers with
        militsia (local police) at the oblast and rayon levels. She made numerous visits to
        sites and developed strong personal relations with the senior officers in the
        militsia offices. Her familiarity with sites and her contacts proved to be very
        valuable during the civil unrest events in 2010. They also helped staff evaluate
        sites for safety and respond to individual emergencies. This practice has been
        changed in 2011 for 2 reasons:
                The SSC SOW was altered at headquarters to transfer the responsibility of
                PCV site visits to Program Managers.

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             33
APPENDIX B


                Budget cut backs made it necessary to reduce travel for all staff, delaying
                opportunities for staff to visit Volunteers at their sites until three months
                after their arrival.

        In response to these environmental changes, staff modified the model for
        introducing Volunteers to local militsia and civic leaders. The new model, which
        retains many elements of the old model, is:
                Host families and counterparts are trained at PST on the importance of
                introducing Trainees and Volunteers to the district militsia and community
                leaders within one month after their arrival at site.
                Trainees are instructed at PST on the importance of this meeting and told
                to press their family and counterpart for the introduction if it doesn’t
                happen within a month.
                If PST includes a site visit, counterparts and host family members are
                asked to introduce their trainee to the local militsia and civic leaders
                during the visit. This item is on the checklist Trainees receive when they
                make their initial site visits and included in Host Agency Agreements as
                one of the responsibilities of a counterpart or director.
                Whenever there is overlap between Volunteers at a site, the preceding
                Volunteer is instructed to introduce the new Volunteer to the militsia and
                community leaders before his or her departure.
                Within one month of their arrival at their permanent sites, the Safety &
                Security Assistant (SSA) will contact all new Volunteers to confirm that
                the introductions have been made and report the results to the Country
                Director and Director of Programming and Training.
                Program Managers visit all new Volunteers at their sites about four
                months after their arrival. For Volunteers who have not yet had their
                introductions, the SSA will work with the Program Managers to plan those
                meetings.
                This year Post shifted to holding ISTs in the regions. At each session the
                head of the oblast militsia is invited to the IST to meet the Volunteers.
                The militsia heads brief the Volunteers on the safety situation in the region
                and provide cell phone numbers for emergencies.
                Normal New Year’s gifts to oblast and rayon militsia chiefs are distributed
                as staff members make their site identification visit in December and
                January. At that time the staff member will reinforce the importance of
                good relations between the Volunteers and their officers.

        In addition, the Safety & Security Coordinator has negotiated an emergency
        assistance agreement with the Ministry of Emergency.

        The new model was put into action in Q1 2011, but not documented or
        communicated to Volunteers. Staff will document the new procedures and ensure
        that all appropriate staff members are trained in the new procedures. Volunteers
        will be informed of the model.


Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                                34
APPENDIX B


        Staff will survey all Volunteers by e-mail and phone to find out if they have been
        introduced to local militsia and civic leaders.

        Timeline for completion: Mid-December 2011

        Documents to be submitted:
             New procedures for introducing Volunteers to local militia (with
             timeframe)
             Volunteer Survey on Introductions results

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the new procedures for introducing
        Volunteers to local police, which includes timeframes, and results of the
        Volunteer survey on introductions to local police and civic leaders.

6. That the country director ensure that Volunteers in the Talas region of
   the Kyrgyz Republic have access to their passports during the winter.

        Concur: Last year Post had a single Trainee intake in March. Post collected
        Volunteer passports during the winter in order to update their Kyrgyz and Kazakh
        visas before their one year expiration date. The expiration date was set by the
        arrival date of trainees. All visas are for one year and take a couple months to
        process, so Volunteers were without their PC passports in January and February.
        We asked the Kyrgyz Ministry of Foreign Affairs and the Kazakh Consulate if
        they could lengthen the term of the visas to avoid this problem, but they declined.

        For most Volunteers the timing was not a major problem. They have their
        personal passports for international travel, and they can purchase a new visa at the
        airport when they return. The timing is a problem for Volunteers in Talas who
        sometimes need to travel to Bishkek via Kazakhstan because the pass is closed by
        snow. For current Volunteers in Talas, Post will give them the highest priority for
        processing. We will send a vehicle out to collect the passports as close to their
        expiration date as possible and work closely with the two governments to speed
        the process. A driver will return the passports to the Talas Volunteers as quickly
        as possible.

        For several reasons, Post has decided to delay the start of PST by six weeks, to the
        middle of May, starting in 2012. This change, combined with the driver
        prioritizing the Talas passports, will mitigate the visa problem for future training
        groups.

        Timeline for completion: December 15th, 2011

        Documents to be submitted:
             Memo on Visa processing from CD
             eCTSS (demonstrating that the input date has been changed to May)

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                              35
APPENDIX B



        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the memo on Visa processing from the CD
        and the eCTSS report that demonstrates the new input date.

7. That the country director include earthquake drills in the post’s
   emergency response procedure testing activities.

        Concur: A mountainous country, Kyrgyzstan is prone to earthquakes. The great
        majority are small and cause little damage, but there have been major earthquakes
        with significant loss of life and damage to infrastructure. During the last year the
        quarterly emergency response drills at the office have focused on responding to
        civil unrest. Post is exploring specialized training in earthquake response
        provided by the Red Crescent and the Ministry of Emergencies. The next
        quarterly emergency response drill at the office will focus on an earthquake
        scenario.

        Timeline for completion: December 15th, 2011

        Documents to be submitted:
             Memo from CD on Earthquake Drill Results

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the memo from the CD on the results of
        emergency response drills that focus on earthquakes.

8. That the country director and director of management and operations
   develop a plan and timetable for budget development and ensure that
   staff contribute directly to budget and resource planning.

        Concur: Post staff believes strongly in the importance of including all units in
        planning and budgeting. Since the current CD came to post as DMO, staff has
        always participated in the development of the operating plan, mid-year reviews,
        and IPBS. Due to staffing and budgetary restrictions there was no offsite IPBS
        retreat in 2011. Instead a workshop was held in the office. Participation was
        open to all staff and mandatory for certain key staff members. Eighteen out of an
        office staff of 23 participated in the workshop and helped shape the IPBS for 2012
        – 2014.

        It should be noted that Post was without a full time DMO from October 7, 2010 to
        February 19, 2011. The current DMO was just getting up to speed during the
        time of Mr. Marshall’s visit, so she had not yet reviewed the 2011 operating plan
        with all members of the staff. To prepare the FY 11 Mid-Year Review and FY 12
        Operating Plan, the DMO worked closely with all units. The DMO has briefed
        Senior Staff on the FY2012 budget submittal. She provided a briefing for staff on



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                              36
APPENDIX B


        the final budget after it was approved by headquarters. All members of the staff
        will be provided with a final copy of their sections of the operating plan.

        Timeline for completion: November 15, 2011

        Documents to be submitted:
             Ops Plan Memo FY12
             Ops Plan Powerpoint Presentation for staff

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the FY 2012 Operations Plan memo and
        Operations Plan powerpoint presentation given to staff.

9. That the director of programming and training ensure that Volunteers
   are fully informed and knowledgeable about the role of the Volunteer
   Reporting Form in the agency’s reporting structure.

        Concur: VRF training is being conducted as part of IST. Training is conducted
        by the Training Manager in partnership with the Program Managers using a
        standard PowerPoint presentation. The training provides Volunteers with a good
        overview of the importance of VRF data and how it is used. Post has
        incorporated information on how VRF data is used and its importance to the
        Peace Corps into IST.

        Timeline for completion: September 2011, completion of K-19 IST

        Documents to be submitted:
             VRF PowerPoint Presentation for Volunteers
             Training Handout: Understanding How the VRT Displays Data
             Training Handout: PCV Quickstart Guide 2010

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the VRF PowerPoint presentation for
        Volunteers and training handouts related to understanding the VRT.

10. That the director of programming and training require programming
    staff to provide timely and substantive Volunteer reporting form
    feedback to Volunteers.

        Concur: Programming staff has been expected to provide timely feedback to
        Volunteers on their VRF submissions. Mr. Marshall’s interviews reveal that
        compliance has been uneven. The CD and acting DPT discussed the importance
        of providing timely, constructive, and specific comments to Volunteers on their
        VRF submissions at a recent meeting. The Program Managers are in full support

Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                               37
APPENDIX B


        of the policy. The CD and acting DPT have personally emphasized the
        importance of accurate reporting to the Volunteers at the first two IST sessions.
        The acting DPT is working with the Program Managers to ensure that Volunteers
        will receive timely comments on a consistent basis. She will review their
        comments for compliance with the policy.

        Timeline for completion: December 15, 2011

        Documents to be submitted:
             Sample VRF feedback comments from PMs to Volunteers

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of a sample of VRF feedback comments from
        Program Managers to Volunteers.

11. That the country director and director of management and operations
    review statements of work and grades for staff to ensure that staff are
    compensated appropriately.

        Concur: Post management believes strongly in the importance of properly
        compensating staff and continues to work with Region to make changes. With the
        FY11 Mid-Year Review, Post was successful in up-grading a PCMO and the
        Medical Assistant to more appropriate levels with the invaluable support of OMS.
        Post believes that several other positions are not appropriately graded when
        compared to other posts. Region was not able to fund compensation increases in
        the FY12 Operating Plan, but the CAO has been very supportive of submitting an
        Unfunded Request at the Mid-Year Review.

        The DMO has begun the process of CAJE’ing the two Foreign Service Nationals
        at Post. When we get a new DPT, he or she will be tasked with reviewing and
        updating the statements of work for the Program Managers and Training
        Manager. Management will work with Region to determine which positions, if
        any, need to be re-graded.

        Timeline for completion: March 2012. Complete re-classifications and
        proposed changes to compensation to Region for funding as part of the FY12
        Mid-Year Review in March 2012. Some Program and Training Unit changes may
        have to wait for a new DPT.

        Documents to be included:
             Memo from CD on HR actions taken

        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the memo from the CD on HR actions
        taken.



Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                            38
APPENDIX B


12. That the country director ensure that Volunteers receive adequate staff
    support and communication regarding their grant programs.

        Concur: Post is extremely fortunate to have access to a number of sources of
        funding for Volunteer projects. Post is the second largest user of PCPP, after the
        Ukraine. We have worked with USAID to manage a Small Projects Assistance
        grants program, and our Volunteers have helped their community successfully
        compete for major grants from USAID’s Office of Transition Initiatives. Last
        year the Manas Transit Center launched a Humanitarian Assistance (HA)
        program. With the help of the Country Director’s Assistant and External
        Relations Coordinator, Volunteers facilitated delivery of blankets and overcoats to
        orphans and low income families in their villages.

        In early 2010 the Humanitarian Assistance program changed direction, expanding
        the program to include construction projects, and reaching farther out into the
        country. As the same time, shifting priorities and staff turnover at the Transit
        Center meant that some projects and scheduled delivery dates got pushed out.
        Volunteers and communities that were expecting donations became frustrated.
        The External Relations Coordinator got caught in the middle. Most recently,
        USAID has asked Post to double SPA grants, and the Transit Center is developing
        new Humanitarian Assistance programs, such as winter coal for low income
        families. Post is now eligible to participate in the USAID Feed the Future
        program, creating new grant opportunities for Volunteers’ communities.
        The External Relations Coordinator has re-doubled her communications with
        Volunteers and convened special meetings of the Volunteer SPA Committee to
        process additional grant applications. The External Relations Coordinator will
        conduct a survey of Volunteers to determine their satisfaction with the
        management of the SPA and HA programs. Based on the results of the survey,
        she will work with the CD and SPA grants committee to determine what
        procedural changes need to be made, if any. The Country Director will review the
        CDA/External Relations Coordinator’s statement of work to determine if it needs
        to be modified in light of the growth in the grants programs. The Country
        Director will also consult with the DMO and DPT to see if some elements of the
        grants management process can be beneficially moved to their organizations.

        Staff will develop a summary page of SPA and HA grant guidelines, bringing
        together the multitude of funding opportunities and application requirements. The
        summary will be sent to all Volunteers by e-mail, and covered in detail at the K-
        19 Project Design and Management workshop in December.

        Timeline for completion: January 15th, 2011

        Documents to be submitted:
             Summary of SPA and HA grant guidelines (as sent to Volunteers)




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                            39
APPENDIX B


        OIG Analysis: We acknowledge the agency’s efforts to address this
        recommendation and await receipt of the summary of SPA and HA grant
        guidelines distributed to Volunteers. Please also provide the results of the survey
        of Volunteer satisfaction with the management of the SPA and HA programs
        along with documentation demonstrating any ensuing changes made to grants
        procedures or the CDA/External Relations Coordinator’s statement of work.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                             40
APPENDIX C


                PROGRAM EVALUATION COMPLETION
                      AND OIG CONTACT

PROGRAM                           This program evaluation was conducted under the
EVALUATION                        direction of Assistant Inspector General for Evaluations
                                  Jim O’Keefe and by Senior Evaluator Reuben Marshall.
COMPLETION                        Additional contributions were made by Heather Robinson
                                  and Lisa Chesnel.




                                  Jim O’Keefe
                                  Assistant Inspector General for Evaluations

OIG CONTACT                       Following issuance of the final report, a stakeholder
                                  satisfaction survey will be distributed. If you wish to
                                  comment on the quality or usefulness of this report to help
                                  us improve our products, please e-mail Jim O’Keefe,
                                  Assistant Inspector General for Evaluations and
                                  Inspections, at jokeefe@peacecorps.gov, or call (202)
                                  692-2904.




Final Program Evaluation Report: Peace Corps/Kyrgyz Republic                               41
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900

                         www.peacecorps.gov/OIG




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
